LEGAL PRINTERS

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

5614 Connecticut Avenue, NW #307
Washington, DC 20015

July 22, 2020
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE 19-930: CIC SERVICES, LLC V. INTERNAL REVENUE SERVICE, ET AL.
Dear Sir or Madam:
I hereby certify that at the request of Amici Curiae, National Federation of
Independent Business Small Business Legal Center, Global Business Alliance, Silicon
Valley Tax Directors Group, Information Technology Industry Council, National
Foreign Trade Council, the Cato Institute, and Reason Foundation, on July 22, 2020,
I caused service to be made pursuant to Rule 29 on the following counsel for the
Petitioner and Respondents:
PETITIONER:
Patrick Strawbridge
Consovoy McCarthy PLLC
Ten Post Office Square
8th Floor South PMB #706
Boston, MA 02109
617-227-0548
patrick@consovoymccarthy.com

RESPONDENTS:
Jeffrey B. Wall
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
202-514-2217
SupremeCtBriefs@USDOJ.gov

This service was effected by depositing three copies of the Brief of the National
Federation of Independent Business Small Business Legal Center, Global Business
Alliance, Silicon Valley Tax Directors Group, Information Technology Industry Council,
National Foreign Trade Council, the Cato Institute, and Reason Foundation as Amici
Curiae in Support of Petitioner in an official “first class mail” receptacle of the United
States Post Office as well as by transmitting digital copies via electronic mail.
Sincerely,
Jack Suber, Esq.
Principal
Sworn and subscribed before me this 22nd day of July 2020.

